<html>
<title> - [H.A.S.C. No. 115-25]MILITARY ASSESSMENT OF RUSSIAN ACTIVITIES AND SECURITY CHALLENGES IN EUROPE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                 
                         [H.A.S.C. No. 115-25]

                     MILITARY ASSESSMENT OF RUSSIAN

              ACTIVITIES AND SECURITY CHALLENGES IN EUROPE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 28, 2017


 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     
                      
                               __________
                                                     

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-091 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>                      
                      
                      
                   
                      
                      
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          TOM O'HALLERAN, Arizona
RALPH LEE ABRAHAM, Louisiana         THOMAS R. SUOZZI, New York
TRENT KELLY, Mississippi             (Vacancy)
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
              Catherine Sendak, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Scaparrotti, GEN Curtis M., USA, Commander, United States 
  European Command...............................................     2

                                APPENDIX

Prepared Statements:

    Scaparrotti, GEN Curtis M....................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Lamborn..................................................    67

Questions Submitted by Members Post Hearing:

    Dr. Abraham..................................................    71
    Mr. Moulton..................................................    71
    Mr. Scott....................................................    71



 
MILITARY ASSESSMENT OF RUSSIAN ACTIVITIES AND SECURITY CHALLENGES IN 
                                 EUROPE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 28, 2017.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Last week the committee heard from experts on hybrid 
warfare, which is also known by several other names. Today we 
focus on one of the regions that has experienced many, if not 
most, of the tactics that we had discussed.
    From the little green men in Ukraine, to political 
assassinations as recently as last week, to buying influence in 
political parties, snap exercises to intimidate neighbors, and, 
of course, cyberattacks of various kinds, Europe has seen all 
of that and more.
    Meanwhile, the Russians continue to invest in their nuclear 
weapons, their anti-access/area-denial capability, and in a 
variety of other capabilities designed to reduce or eliminate 
any technological military advantage that the United States may 
have had in the past. We know that one of their primary goals 
is to divide and weaken NATO [North Atlantic Treaty 
Organization], arguably the most successful military alliance 
ever.
    To discuss these issues today we are pleased to welcome 
NATO Supreme Allied Commander and commander of the U.S. 
European Command, General Curtis Scaparrotti, not for the first 
time, but for the first time in this capacity.
    Before turning to him, let me yield to Mr. Smith for any 
comments he would like to make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And welcome, General. It is great to see you again. I 
always appreciated your leadership out at Joint Base Lewis-
McChord when you were out there and appreciate your leadership 
even more in Europe.
    And I agree with the chairman's opening remarks, look 
forward to your testimony.
    But Europe is, you know, as great a challenge as we have 
had since the end of the Cold War now. And I won't belabor the 
point because we have all heard about it, but Russia is 
reasserting itself not just in Eastern Europe but in many ways 
in Western Europe, trying to influence elections, trying--
basically trying to undermine liberal democracy.
    Vladimir Putin's goal is to make the world safe for 
autocratic dictatorships and to undermine the values that we 
hold dear in this country, which is representative democracy. 
And he is doing that, frankly, on a very low budget using a lot 
of cyber and a lot of intel operations, and I think we have to 
get smarter about how we counter that. And a lot has been said 
about that. I look forward to your comments.
    Last thing I will say is, obviously the big question we 
have is what should our presence be in Europe as a deterrent to 
what Russia is doing? Because that, I think, should be the 
goal.
    Putin is not stupid. They are nowhere near as strong as 
they were during the height of the Cold War. So basically he is 
trying to have influence on the cheap, but the higher the cost 
the less likely he is to engage in his destabilization efforts.
    Does a larger presence by us in that region act as that 
deterrent? And if so, what should that presence look like?
    So those are some of the questions I know we need answered. 
And obviously, you know, we want to reaffirm our commitment to 
NATO and its enduring importance in all of our alliances in 
Europe in terms of maintaining the peace and stability in the 
world that we want.
    With that, I yield back. I look forward to your testimony.
    The Chairman. General, without objection your full written 
statement will be made part of the record, and at this time you 
are recognized for any comments you would like to make. Thanks 
again for being here.

STATEMENT OF GEN CURTIS M. SCAPARROTTI, USA, COMMANDER, UNITED 
                    STATES EUROPEAN COMMAND

    General Scaparrotti. Well, thank you.
    Chairman Thornberry and Ranking Member Smith and 
distinguished members of the committee, I am honored to testify 
today as the commander of the United States European Command. 
On behalf of over 60,000 permanently signed service members as 
well as civilians, contractors, and their families who serve 
and represent our Nation in Europe, thank you for your support.
    European theater remains critical to our national interest. 
The transatlantic alliance gives us a unique advantage over our 
adversaries: a united, capable warfighting alliance resolved in 
its purpose and strengthened by shared values that have been 
forged in battle.
    EUCOM's [U.S. European Command's] relationship with NATO 
and the 51 countries within our AOR [area of responsibility] 
provides the United States with a network of willing partners 
who support global operations and secure the international 
rules-based order. Our security architecture provides more than 
1 billion people a safeguarded transatlantic trade, which now 
constitutes almost half of the world's GDP [gross domestic 
product].
    However, this security architecture is being tested, and 
today we face the most dynamic European strategic environment 
in recent history. Political volatility and economic 
uncertainty are compounded by threats to our security system 
that are transregional, multi-domain, and multifunctional.
    In the east, a resurgent Russia has turned from partner to 
antagonist as it seeks to reemerge as a global power. Countries 
along Russia's periphery, including Ukraine and Georgia, 
struggle against Moscow's malign activities and military 
actions.
    In the southeast, strategic drivers of instability converge 
on key allies--especially Turkey, which has to simultaneously 
manage Russia, terrorists, and refugee flows.
    In the south, violent extremists and transnational criminal 
elements spawn terror and corruption from North Africa to the 
Middle East, while refugees flee to Europe in search of 
security and opportunity.
    And in the high north, Russia is reasserting its military 
presence and positioning itself for strategic advantage in the 
Arctic.
    In response to these challenges, EUCOM has shifted its 
focus from security cooperation and engagement to deterrence 
and defense. Accordingly, we are adjusting our posture, plans, 
and readiness so that we remain relevant to the threats we 
face. In short, we are returning to our historic role as a 
warfighting command focused on deterrence and defense.
    EUCOM's transition would not be possible without 
congressional support of the European Reassurance Initiative. 
Thanks in large measure to ERI, over the last 12 months EUCOM 
has made clear progress with an enhanced force presence, 
complex exercises and training, infrastructure improvements, 
increased pre-positioning of equipment and supplies, and 
partner capacity-building throughout Europe.
    But we cannot meet these challenges alone. In response to 
Russian aggression EUCOM has continued to strengthen our 
relationship with strategic allies and partners, including the 
Baltic nations, Poland, Turkey, and Ukraine. EUCOM has also 
strengthened ties with Israel, one of our closest allies.
    Above all, EUCOM has supported the NATO alliance, which 
remains, as Secretary Mattis said, ``the bedrock for our 
transatlantic security.''
    Thus, the EUCOM posture is growing stronger, and I remain 
confident in our ability to affect this transition. But there 
is much work to do.
    We must not only match but outpace the modernization 
advances of our adversaries. We must invest in the tools and 
capabilities needed to increase effectiveness across the 
spectrum of conflict. And we must ensure that we have a force 
that is credible, agile, and relevant to the dynamic demands of 
this theater.
    To this end, EUCOM has identified the following focus 
areas: ISR [intelligence, surveillance, and reconnaissance] 
collection platforms to improve timely threat information and 
strategic warning; land force capabilities to deter Russia from 
further aggression; enhanced naval capabilities for 
antisubmarine warfare, strike warfare, and amphibious 
operations; pre-positioned equipment to increase our 
responsiveness to crisis; and enhanced missile defense systems.
    Let me conclude by again thanking this committee's members 
and staff for their continued support of EUCOM, not only 
through increased funding, but also by helping us articulate 
the challenges that lie before us. Support from the other 
leaders and, above all, from the public at home and across 
Europe is vital [to] ensuring that we have a ready and a 
relevant force.
    This remains a pivotal time for EUCOM as we transition to 
meet the demands of a dynamic security environment, and I 
remain confident that through the strength of our alliances and 
partnerships, and with the professionalism of our service 
members, we will adapt and ensure that Europe remains whole, 
free, and at peace.
    Thank you.
    And, Chairman, I look forward to the questions.
    [The prepared statement of General Scaparrotti can be found 
in the Appendix on page 43.]
    The Chairman. Thank you, sir.
    Both Mr. Smith and I mentioned some of the tactics Russia 
has used, but can you step back for a second and summarize in, 
obviously, this open session what they are doing with their 
military capability? How and in what areas are they advancing 
their capability, and how does it relate to us? Just kind of a 
general picture of their military capabilities.
    General Scaparrotti. Chairman, thank you.
    I think if you look at their forces from what we know as 
hybrid or asymmetric means, to conventional, to nuclear, they 
are modernizing this force in every one of those categories. 
Within the hybrid, for instance, we are well aware of their use 
of cyber, their use of disinformation, or ``information 
confrontation,'' as they call it. And, in fact, in recent 
months they announced new elements within their force that 
focus on information confrontation, information operations.
    So they are focused on that and, in fact, I would add here 
that when you look at their view of the spectrum of conflict, 
unlike our view, theirs includes those activities below what we 
would call the level of, or the threshold of, conflict. It 
includes political provocation, information operations, 
disinformation, cyber, et cetera. So it is a functional part 
now of their doctrine, I believe, and they put it into play.
    In the conventional realm they are upgrading the systems 
that they have--their naval ships, their airplanes, et cetera--
as well as building new ones for the future. They have refitted 
their aircraft and their ships for some of their newer 
munitions, which are very capable.
    Caliber [cruise missile] system, for instance, can be 
placed on the ground, in the air, at sea, so it is a 
multifunctional system, gives them, you know, long reach and 
precision, et cetera. So that is how they are advancing in 
their force.
    Their nuclear forces, as well. Across all the areas they 
have been increasing their capability, really refining their 
capability from the old systems.
    And one of the things you see that is disturbing is the 
fact that they are using similar weapon systems that can either 
be conventional or nuclear, which then makes it difficult for 
us to clearly understand what they have employed. And then 
secondly, within their doctrine again, they have made the 
statement openly that they see a use for nuclear tactical 
capabilities within what we would consider a conventional 
conflict, which is very alarming.
    So that is how I would--I would categorize their movement 
at this time.
    The Chairman. Okay.
    Let me just remind all members that immediately following 
this open hearing we will have a closed session with General 
Scaparrotti where we can go into more detail on classified 
matters. Again, that will be immediately upon the conclusion of 
this open hearing.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Could you give us some idea of the importance of the 
presence of U.S. troops in Europe as a deterrent to what Russia 
is doing? And what size force do we have there now? What size 
force do you think we should have? And how would that presence 
help us to deter the activity that has been described?
    General Scaparrotti. Well, first of all our presence there 
is and always has been a very important component of the 
alliance, the NATO--you know, NATO alliance, of which we are 
one of 28 nations, as well as our partners in Europe.
    We have the best military in the world. It works across 
multi-domain, it is a joint functional force, and it provides a 
critical element to our partners. It also, in operating with 
them, builds interoperability which is essential, you know, 
within the alliance itself.
    Today we have about a little over 60,000 of all services 
stationed in Europe. It provides a force that allows us to 
deter today but, as you know, with this committee and ERI we 
are looking to modernize that force to put us in a better 
posture, particularly given Russia's modernization that they 
are on that I just described.
    We need a greater force there, I think, potentially in the 
land component, either a rotational or rotational enduring 
footprint of an armored division, for instance.
    Within the Air Force we have a pretty good posture there, a 
very capable posture. But again, they are looking forward to 
adding, you know, fifth-generation aircraft, which are 
important given the modernization, again, of Russia.
    And with the Navy, again, an additional naval component on 
rotation through Europe in order to deter, but specifically 
with respect to antisubmarine warfare, which is an area of 
concern with the Russians. We are still dominant in that 
domain, but we have to continue to invest in order to properly 
deter and also remain dominant.
    Mr. Smith. Thank you. One last question: Specifically on 
the Ukraine, what more could we be doing to help the Ukraine 
both fight off the Russian insurgency in the East and then also 
to strengthen their government, which I understand is, you 
know, plagued by corruption and plagued by inefficiency and 
that is part of the problem?
    Because if Putin is unsuccessful in the Ukraine or if the 
cost gets too high for his interference there I think that is, 
you know, the best deterrent we could give to further activity 
because that is sort of, you know, where--I don't know if it is 
where he started, but it is certainly where he has had the most 
public involvement. What more could we be doing in the Ukraine?
    General Scaparrotti. Sir, I have been to Ukraine twice now, 
both in their training area and out to the ATO [anti-terrorist 
operation zone]. I would say first of all I am very impressed 
with their military and its discipline. What we have provided 
them in terms of our training capability as well as equipment 
is being well used, and they are very eager in terms of their 
ability to learn more.
    So we presently are involved in reform of their government 
and capacity-building within their security system. We need to 
continue that.
    I don't know that it is more; I think it is probably a 
little better organization across the whole of government. 
Within the training environment, what we do with other NATO 
allies there is very effective.
    Again, there, I have been out to it and seen it done over 
the past year. I think better organization there would help. 
There are things we can do to continue to refine it.
    The Ukrainian forces are learning and they are getting 
better, and we need to consistently adjust.
    In terms of weaponry, I personally believe that we need to 
consider lethal defensive weapons for Ukraine. They are 
fighting a very lethal, tough enemy.
    It is a Russian proxy, really, and the Russians provide 
some of their newest equipment there in order to test it. They 
have tested UAV [unmanned aerial vehicle] sensor-to-shooter 
techniques, et cetera, which are lethal. And so we need to 
continue to support them, in my view, to have the appropriate 
weapons to defend Ukraine.
    Mr. Smith. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General, thank you very much. I have had the 
extraordinary opportunity to visit with you and I know 
firsthand your extraordinary dedication and success, and it is 
just heartwarming as the proud dad of three sons in the Army. I 
particularly appreciate--even one in the Navy--we appreciate 
you and just thank you so much.
    With your service on the European Command and your previous 
assignment, of all things, to United States Forces Korea, you 
faced extraordinary challenges. Sadly, with the--so many 
permanently assigned forces not in your command currently now, 
how is this being addressed? And do you feel that we have 
enough military assets regionally to properly deter Russian 
aggression against the NATO alliance?
    What other forces in particular do you need to properly 
deter any aggression? In addition, would the presence of these 
forces be accepted and welcomed in Europe?
    General Scaparrotti. Well, thank you very much. It is good 
to see you again.
    And within Europe we can do our job today. We can deter the 
Russian force that we see. We can counter terrorism, which is a 
part--a key part of our mission. We can enable our partners.
    But if you look at the environment today and how it is 
evolving, and particularly the modernization I mentioned with 
Russia and the creativity of our--of the terrorists that we 
face as well, we need to ensure that we build a force that is 
relevant to that threat and can continue to deter.
    So for those things that I need, one, it is--you know, I 
need intelligence, surveillance, and reconnaissance in greater 
numbers than I have now because to deter properly I have to be 
able to have a good baseline of Russia in particular so that I 
know when things change, I can posture my forces properly. So I 
need increased ISR to have good indications and warning and be 
able to set that posture properly over time.
    Land force capabilities, which I mentioned earlier, but it 
is particularly the enablers of an armored division, a fires 
brigade, an engineer brigade, air defense, those kinds of 
systems in the numbers that I need there and as we move 
forward--now done on a rotational basis, but perhaps a 
rotational enduring or some mix of that.
    Increased naval capabilities. It would be helpful to have a 
carrier support group and amphibious forces more than I have 
them now. I have them rotational as they go to other combatant 
commands. An increase of that would help us in deterrence; it 
would help us reinforce our interoperability with our partners 
and work with our partners.
    And particularly I have noted ASW, antisubmarine warfare, 
because of the advances that Russia in particular is making in 
the undersea domain.
    Enhanced missile defense. As we have seen every place in 
the world, ballistic missiles are proliferating and that is a 
very tough area.
    And then finally, munitions, both modernization and 
appropriate stockpile, so that I have what we need if 
deterrence fails and we have to respond to crisis.
    Mr. Wilson. Thank you for being so specific.
    I am concerned that the military as a whole is facing a 
stark readiness crisis. Funding for training, maintenance and 
repair, new equipment, and future development of equipment has 
been short.
    Aside from the aforementioned additional forces you may 
need, what shortfalls are you in particular seeing in your 
command? Please assess the readiness, the challenges of the 
European Command, and what resources are required to increase 
readiness in your area of responsibility.
    General Scaparrotti. Well, I think, first of all when it 
comes to readiness I am fortunate in that particularly 
rotational forces, both Air Force, Army, Navy, et cetera, they 
are ready when they deploy. They come to me as a ready force.
    And I would tell you that they depart as ready or more 
ready when they leave Europe because of our ability and 
training capacity there. So we are good in that area.
    That is still, though, given the budget today and the 
demand against the OPTEMPO [operations tempo], as well as 
modernization that the services face, you know, increased 
funding, particularly for our pilots, would increase their 
capabilities within Europe. It would be helpful even at this 
point to increase their capability to fly more. That is both 
Army, that is Air Force as well.
    When you go to our support within Europe, you know, we have 
been underfunding all the facilities that support not only our 
forces but support our families. And that is another area that 
as we look at--it is function of readiness as well, and it is 
something that today we don't fully fund and would be helpful 
to the force, too.
    Mr. Wilson. And I want to thank you.
    Another question concluding, the European Deterrence 
Initiative is very important, been very successful. And I know 
the South Carolina Army National Guard is grateful that we had 
a unit just leave for Poland, so thank you for your success.
    The Chairman. General, just so I am clear, when you list 
ISR, antisubmarine warfare, missile defense, those are things 
you need more of, correct?
    General Scaparrotti. They are things that I need more of. 
And, we also, when we get into the classified section I can 
talk to each of those in terms of capabilities and advancement 
we need to make, given modernization of our adversaries.
    The Chairman. Okay. Thank you. I just wanted to be clear.
    General Scaparrotti. That is correct.
    The Chairman. Ms. Gabbard.
    Mr. Norcross.
    She didn't want to.
    I am sorry, you are good? You want to wait? Okay.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. And thank you, General.
    General, I am kind of curious, I mean, I was here for the 
2014 QDR [Quadrennial Defense Review] and, you know, it is sort 
of like how we set the tone, and I don't recall in that QDR or 
the QDR before that that I had an opportunity to review--I was 
not here for that--that there was a major concern about Russia.
    And, matter of fact, I thought the philosophy was more 
along the lines that we thought we could kind of bring them 
around and they would become an ally of us. Then it seems like 
something occurred and all of a sudden they are viewed by some 
as our greatest threat.
    So can you explain to me, General, how we go from thinking 
that maybe they will maybe be part of NATO, and all of a sudden 
it is like we have got to protect NATO and protect the 51 
countries that are really part of EUCOM's AOR?
    General Scaparrotti. Well, yes. I think prior to 2014--as I 
said, the transition that we are making in Europe right now is 
one from engagement and cooperation to deterrence and defense. 
And we made that--what the real trigger was--I mean, we began 
to see the modernization and where Russia was going prior to 
that, but 2014 the annexation of Crimea, the occupation of 
Ukraine, for instance, was enacted, clearly set out that we 
have Russia as a competitor that is willing and did break 
international law. And I think what you see in their activities 
today often is pushing wherever they can against the 
international norms.
    They still occupy Ukraine and Georgia, for instance, with 
troops without invitation. We have seen their activities in 
cyber that are, at a minimal, criminal, in some cases: an 
attack on the Ukrainian power grid; most recently, Latvia 
believes they were a part of an attack on their government web 
system; and then their attempt to influence or inside of our 
election, and probably France and Germany, and others.
    So I think, you know, if you look at their action it tells 
us that we have a nation here that we need to be very sober 
about. We don't seek conflict with them. Deterrence, in fact, 
has its mission to prevent conflict or war. But at this point 
Russia has not been very responsive to the international 
community in advancing Ukraine, Crimea, et cetera.
    Ms. Hanabusa. So, General, what is your strategy that you 
would propose to this body as to what is necessary to prepare 
for Russia, whatever they may or you may be afraid that they 
are going to do? I think we like to have some sort of certainty 
of what--you know, what do you think the most probable scenario 
would be, and what is then what you need to have?
    General Scaparrotti. Well, for example, I think Russia will 
continue to press against the international norms. They want to 
regain great power status, and the actions they are taking, in 
their view, is to ensure that.
    What we need to do is we need to demonstrate strength. We 
need to be strong. That is what Russia respects.
    They are opportunistic. Where they see weakness they will 
take advantage of it when it is in their interest.
    We need a whole-of-government approach to this. It is not, 
in fact, the military is not the major part; it is the smaller 
part of this. We exist as a postured force to really provide 
muscle to our diplomacy, to information, to economics, et 
cetera.
    We need to invest in the capabilities to make sure that we 
have a relevant force. A part of deterrence is, you know, the 
capability, and the credibility, and the final thing is 
communication. And I think communication with Russia is an 
important part to play in this.
    Finally, strengthen our partners.
    Ms. Hanabusa. General, do you believe that the concept of 
the triad and, you know, basically our nuclear forces is part 
of that deterrence structure that you need to have in the 
EUCOM?
    General Scaparrotti. Yes, I do. I think the triad, as it 
exists in a safe and credible nuclear deterrent, is very 
important, particularly given Russia's capabilities.
    Ms. Hanabusa. Do you think that is the only force that 
Russia understands, or would respect, I guess is the word?
    General Scaparrotti. Yes. I think that they do focus on the 
strength of their opponent, and I think they are optimistic. 
Where they see weakness and they believe that they can gain 
their interest or objectives, they will move out on that.
    Ms. Hanabusa. Thank you, Mr. Chair. I yield back.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    General, good to see you again. Thank you for your efforts 
in keeping us safe and helping us to plan for the defense of 
the United States and our allies.
    Thank you for your strong statement on the issue of arming 
Ukraine. Congress has passed very strong resolutions calling 
for the same, including authorizing arming of Ukraine, so I 
appreciate your assessment of that circumstance and the advice 
that they bear investing in with the defensive armament.
    As you know, I am very active in the NATO Parliamentary 
Assembly. I appreciate your participation with NATO 
Parliamentary Assembly. Several members of the Armed Services 
Committee are very active in that.
    You know, it gives us an opportunity to interface with 
members of the various parliaments of the 28 nations. Recently 
we had a group of parliamentarians into Washington and we 
invited RAND in to conduct a military exercise based upon the 
RAND Russia-Baltics report that exposed the vulnerability of 
our Baltic NATO members. It was intriguing because a lot of the 
time that we spent on the presentation was informing our 
partners of Russia's current military posture, deployment, and 
capability.
    So I would like you to talk for a minute about how do you 
keep our NATO partners informed, and is that a part of what you 
have to do of informing our partners of Russia's posture and 
the threat from Russia? Also then, if you would talk about if 
you believe that the forward-stationing of an armored brigade 
combat team in Europe on a permanent basis rather than 
rotational would be helpful in your deterrence quest.
    And could you also give us just a brief discussion of how 
you have seen that the European Reassurance Initiative, our 
effort to pre-position equipment and to reassure our allies, 
has transitioned over the past year.
    Thank you.
    General Scaparrotti. Well, first of all, it is one of my 
responsibilities to work with our allies, both as EUCOM 
commander to the 51 nations, but specifically as the SACEUR 
[Supreme Allied Commander, Europe] and NATO command with the 28 
nations.
    We do that through a number of means: personal visits of 
myself and other leaders; information to the North Atlantic 
Council; exercises within the--within Europe, either with 
partners and/or NATO. And we invite leadership--political 
leadership, as well, to those.
    And then finally, we do CMX, or a crisis management 
exercise, that brings in the leadership in NATO about every 
couple years, probably similar to what you experienced, in 
order to inform them of not only the capability of our 
adversaries, but the nature of war today.
    You know, it is--decision space is much tighter. 
Information moves much faster. Those are the kinds of things, 
too, that I think it is helpful to discuss with the leadership.
    Secondly, in terms of a--the rotational brigade, I would 
prefer to have an enduring armed force in Europe. That is a 
service decision. They provide right now is a rotational force; 
I would prefer to have an enduring one because the force then 
becomes accustomed to the environment, it forms relationships 
with our allies, they become well known over the period of time 
of several years that our service members are then stationed 
there, and have a greater appreciation for the problem set.
    And then finally, within ERI: ERI is advancing very well, 
and thank this committee for your support of that. Without ERI 
we would not be postured to deter today as I have said we are.
    It is what has allowed us to improve that posture today 
with a rotational brigade there with the ability to reinforce 
NATO with one of the Enhanced Forward Presence [EFP] battle 
groups from the U.S. and Poland, with additional support with 
air and naval forces. We have used it to improve infrastructure 
so that we can move forces into Europe and around Europe, and 
station forces in a more flexible, agile way.
    All of those things have made a significant difference, and 
they also make a difference to our allies because we don't do 
this alone. We do this as an--you know, as an alliance, and 
just as our battle group will have a Romanian contingent with 
it and others, that is common when we train in Europe, as well.
    Mr. Turner. Thank you, General.
    The aspect of informing our partners--it is very 
interesting to me because this is their neighborhood, but yet 
it seems like the United States still takes a lead on allowing 
our European partners to understand what their threats are and 
what the posture in the European arena is.
    General Scaparrotti. Well, part of this--and I think it 
isn't just Europe, you know, the environment has changed; the 
nature of warfare has changed. And so it is easy sometimes not 
to realize that and then realize what the impacts of those 
changes are.
    So that is the importance of doing the CMX, of getting out 
and keeping our allies informed and then, you know, our--both 
our military and our policy leaders have to also engage in that 
so that they learn, as well, because this environment is 
continuing to change and it has dramatically since 2014, for 
instance.
    Mr. Turner. Thank you. Mr. Chairman, I yield back.
    The Chairman. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chair.
    General Scaparrotti, you state that Russia is now the top 
theater priority. The Secretary of Defense has stated that 
Russia's aggressive actions have violated international law and 
are destabilizing. The message to this committee has been 
consistent: that Putin and the Russian Federation seek to 
disrupt the international order and the cohesion of the 
international organizations like NATO and EU [European Union].
    You stated in your testimony that deterring Russia's--
deterring Russia requires a whole-of-government approach. 
Unfortunately, I do not believe we have used a whole-of-
government approach, especially as this branch of government 
has refused to investigate Russia's effort to disrupt this 
country's democratic process.
    General, there are not many who can supersede your 
expertise on Russia. Today you have presented this committee 
with strategies to confront the Russian threat militarily. 
However, I am sure that you agree that it will take more than 
just military strength to effectively combat a state that is 
undermining and threatening democracies globally, including 
America's.
    General, can you provide this committee the type of whole-
of-government approach necessarily--or necessary to effectively 
deter Russia?
    General Scaparrotti. Thank you, sir.
    Russia is an adversary that employs whole of government. We 
see them work politically; we see them use economics as 
leverage; we see them use information to influence 
populations--some of that is disinformation, as well. And so 
for us to be effective we have to respond across all those 
domains, as well.
    So as a government--and we did this during the Cold War--as 
a government we had overarching objectives with respect to the 
Soviet Union then, but we need overarching objectives today. We 
need some lead agencies, like a lead agency in information, 
that has authorities to integrate across the different agencies 
in the government with respect to information. We need to 
approach them economically with the same overarching 
objectives.
    So, you know, it is a very general description but that is 
literally where we need to go, every agency focused on our 
approach to Russia. And again, it is to influence them and not 
to have conflict, but to avoid conflict with them and yet 
protect our interests.
    Mr. Carbajal. Do you find that we are being effective?
    General Scaparrotti. I would say that we are not as 
effective as we could be. We can organize, particularly as 
whole of government, in a better way, and I believe we will. I 
think that at least my leadership and what I know is focused on 
that, and we have work to do.
    So we can be more effective, particularly in the 
information domain where, you know, we have, I think, very good 
capability, good talent, creativity, and we just need to move 
out on that a bit.
    Mr. Carbajal. And not to make it so simplistic, but what 
could this Congress do to address the highest priority that 
perhaps is our weakest link in being more effective?
    General Scaparrotti. Well, I think provide the leadership 
in those objectives. Provide the leadership toward a, you know, 
a cohesive, integrated governmental approach to this problem. 
And then as you do, finance those efforts, as well.
    Mr. Carbajal. Thank you. Thank you very much. I yield back, 
Mr. Chair.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Scaparrotti, thanks again. Appreciate you joining 
us here, and thanks again for your service. It has always been 
an honor to visit you when we have had the opportunity in 
places like Korea and elsewhere.
    I wanted to ask you about the mission of the Enhanced 
Forward Presence battalions that are located in the Baltic 
nations and Poland. Can you give us a little laydown about what 
those units are there training and preparing to do? And do 
these battalions effectively deter Russia? How does Russia look 
at that with a total force presence there?
    Obviously, with Russian forces along the border there in 
the Baltic nations--as we visited the Baltic nations they are 
deeply concerned about the presence of armor artillery units 
and Russian troops stationed along the border.
    Does our presence there with these Enhanced Forward 
Presence units--is that a significant deterrence? And how do we 
use those units in coordination with our allies, both in 
training and in presence?
    General Scaparrotti. The Enhanced Forward Presence is a--in 
NATO terms they call it a battle group. It is a battalion task 
force.
    Mr. Wittman. Yes.
    General Scaparrotti. But it is combined with--in Poland 
with Polish troops. We have Romanian troops as a part of that, 
and others. And we operate with Polish forces in the defense of 
their nation.
    It is under NATO operational control. It is a very 
significant force. I think it has a significant impact on 
deterrence.
    This is a very strong commitment from the 28 nations of 
NATO that they are--that they will honor Article 5, that an 
attack on one nation is an attack on all. And so while some may 
say, ``Well, it is four battalion task forces,'' it is four 
battalion task forces but it is a statement that is backed by 
28 nations and all of their capability--not just military, but 
economic, informational, et cetera.
    Russia does respect NATO. It is one of the reasons that 
they are trying to undermine NATO and fracture it is because 
they do respect NATO. So I think it is effective.
    The last thing I want to say is, is that while we do focus 
on a battle--a task force, it is connected to the other 
domains. You know, we connect with our air, our maritime, and 
those others that we can bring to bear. So we can fight it as 
we fight today.
    Mr. Wittman. As I visited there our allies express two 
desires. One is increased U.S. presence as a permanent presence 
there in the Baltic States. And, of course, we talked to them 
about rotational presence, and I would try to convince them you 
actually have more troops there on a rotational presence that 
know your country and know operationally than you would if you 
had just a battalion. But they are all about, let's have a 
battalion presence there.
    So I want to ask about how your conversations with our 
allies have gone about their view of our commitment and that 
element of presence. And then secondly, too, when Secretary 
Mattis went there and had a heart-to-heart discussion about the 
commitment that NATO nations need to make as far as funding 
their militaries, give me your perspective on whether you see 
that commitment growing.
    Is it growing in the right ways to make sure that they are 
working with us to create that presence and that deterrence? 
And how important is it in the minds of many of our allies 
there for that permanent presence, which, as you know, we have 
moved away from since the days of the Cold War?
    General Scaparrotti. First of all, I just visited each of 
the Baltic countries a week ago, and in every country, as you 
said, they asked for permanent presence of U.S. forces. And I 
have said publicly that they have near-permanent presence of 
U.S. forces. It is rotational, but it is enduring.
    Mr. Wittman. Right.
    General Scaparrotti. And we are committed to that as long 
as these conditions exist.
    The one upside of a rotational force is that we are 
bringing rotational forces through and much more of our force 
structure then becomes familiar with the environment----
    Mr. Wittman. Yes.
    General Scaparrotti [continuing]. The people, the 
challenges, their allies in Europe. That is a benefit to it.
    And so, for instance, from the Army chief of staff's 
perspective that is very good for his force----
    Mr. Wittman. Sure.
    General Scaparrotti [continuing]. As you rotate different 
units through.
    Mr. Wittman. Yes.
    General Scaparrotti. And that is good for us. If we had to 
respond to a crisis we would certainly bring forces from the 
States to reinforce us.
    I think they understand that. I would just say they are 
very appreciative of the United States contributions to their 
defense. There is no question about that.
    In terms of funding growth, we have seen a change in NATO 
and a response. Last year was the first year that was--the 
trend was not down in terms of percent of funding of GDP across 
the 28 nations. It turned up.
    This year it was an increase of 3.8 percent, I think it is, 
but 22 nations have increased their budget this year.
    I said I was just in the Baltics, for instance. Estonia 
already meets the 2 percent; Lithuania and Latvia both told me 
they will meet it by 2018 and probably go beyond that.
    So countries are responding. What is important to this, 
too, though, I would point out, is that we meet the 20 percent 
agreement for modernization----
    Mr. Wittman. Yes.
    General Scaparrotti [continuing]. Because they have to be a 
relevant force, as well.
    Mr. Wittman. Right. Very good. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    And, General, thank you for your presence here. Thank you 
for your service and your leadership in Europe.
    A few decades ago I had the privilege of serving with 
180,000 or so Army personnel when we defended the Fulda Gap. We 
won the Cold War.
    A lot has changed since then. I participated in a lot of 
interoperability exercises, Reforger and a number of others, 
with, you know, French and British and German forces. And we 
relied a lot on their infrastructure, particularly the 
transportation and communication network.
    My question has to do with that infrastructure. You 
mentioned in your written testimony as well as, I think, you 
briefly touched upon it today, that the expansion of the 
alliance to include Central and European--Central and Eastern 
European countries has made it a little more challenging with 
the lack of a common transportation network.
    So as you anticipate what could be a Russian aggression on 
the eastern flank of NATO, could you briefly describe some of 
the challenges that you would have in feasibly moving both U.S. 
and NATO forces along or across multiple sovereign countries 
and getting the permissions and the support--roads, bridges, 
rail, and the like?
    General Scaparrotti. Yes. In the days that you trained 
there--and I trained there, as well--we had a very good basis 
and understanding of the--of mobility, whether it is rail, air, 
ground, bridge construction, weight that it would take. We had 
a very good understanding of Europe and how to move our force.
    Over the years of partnership, the last 20 years or so, we 
began to atrophy that. We don't have as good an understanding 
of our road networks, and particularly those nations that were 
once a part of Warsaw Pact to the east that are now partners 
with us.
    So we are developing that and we are working that hard with 
our partners. The alliance countries are doing a lot. Germany, 
in particular, has been very helpful.
    But we are having to take a look at do we have the rail 
capacity? Are the bridges strong enough, and which ones can we 
move across? Those kinds of things.
    And with EFP and our rotational brigade, those two in 
particular, we have been exercising that.
    Final thing I would like to say is the allies contributed 
to this. They are all becoming a part of mobility and 
infrastructure that we need to have an agile force in Europe.
    Mr. Brown. And can you state whether or not we currently 
or--and if not, whether we should be making any investments in 
that infrastructure, considering the security interests that we 
have?
    General Scaparrotti. We are currently making investments in 
that, as well as our allies, and we should continue to do that.
    We have to have some agility. We won't know exactly how 
things may roll out if there is a crisis nor where it may 
happen. We are routinely not as good at being very precise in 
that determination in the future.
    So we have to develop infrastructure and mobility within 
Europe that allows us a good deal of agility. And then we need 
to train against that, as well, and exercise it.
    Mr. Brown. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General, good to see you again. Part of my questions 
revolve around rail, the difference in the gauges, the fact 
that our equipment is so large now that it won't go through 
some of the tunnels that have been there for so long.
    I will shift, then, to lift capacity--our large lift 
capacity. If we can't get our equipment there by rail or by 
tunnel, do we have the lift capacity, with the retirement of 
the C-5s that we have had in the last couple of years, that we 
would need? And do we have the ability to land those planes 
with their weight where we would need the equipment?
    General Scaparrotti. As you can imagine, we are looking at 
all this with respect to our plans. STRATCOM [U.S. Strategic 
Command] could probably give you the--or Transportation Command 
could give you the best response to that, but as I have 
conversed with them and we look at our plans, we can move. It 
is little slower than I might like at this point.
    I am concerned about the future, in terms of the investment 
not only in military but also civilian ships and aircraft that 
we routinely rely upon in a crisis. And in that area we need to 
continue investment or we will continually meet greater 
challenges here in the future, from what I have seen in our 
planning.
    Mr. Scott. Yes, sir. I am concerned about that, as well. I 
think that the lift capacity, especially large lift capacity, 
is something that we need to revisit.
    We talked about the JSTARS [Joint Surveillance Target 
Attack Radar System] in Europe. I have very serious concerns 
about is the number of units we have go in for major overhauls, 
major depot maintenance, that you would potentially end up with 
a shortage of that. Do you see the demand for JSTARS 
decreasing? And what effects are there if there is a moving 
target indicator gap?
    General Scaparrotti. This is particularly important against 
a large force like Russia so that we do have good information, 
we understand movement and change. That is how we build the 
indications and warnings [I&W] and the ability to react 
appropriately, so it is very important to us.
    I am concerned about the reduction as we bring on new 
aircraft, which we need to do. I do not have all that I would 
like to have today to provide the I&W that I need in Europe.
    Mr. Scott. As we discuss the upcoming budget, potential 
decreases in funding to the State Department are a concern, I 
think, of most of the people on this committee.
    How much more difficult does this make your mission? And 
what challenges do you face with these potential shortcomings 
in the budget? And how does it potentially hurt our 
partnerships in the region?
    General Scaparrotti. Well, you know, I--in terms of where 
the budget is at is not in--mine to comment on, but I would say 
that, as I noted earlier, our problems--all the problems that 
we face in Europe require a whole-of-government approach and 
they require, you know, approach with partners in the same 
fashion.
    So if you look at how I counter transnational threats or 
terrorism inside of Europe, military is a part of that; we have 
that cell that runs that in EUCOM, but most of the work is done 
by Treasury, State, and others across our agencies to complete 
that work and enable us to do it.
    And again, I think that in deterring Russia it is a whole-
of-government approach, as well. Diplomacy should be the 
priority and we, as a military, with the right posture, provide 
some muscle for diplomacy to work.
    Mr. Scott. General, I appreciate your service. And with 
that, Mr. Chairman, I yield the remainder of my time.
    The Chairman. Mrs. Murphy.
    Mrs. Murphy. General Scaparrotti, thank you for being here 
today.
    I want to start by noting that I have deep concerns about 
the current administration's continued publicly questioning of 
our alliances and the sanctity of the post-World War II 
international order. I think it is a dangerous narrative that 
reflects both an internal and external threat to our national 
security.
    Externally, the rise of Russian aggression in the--and 
Russia's use of hybrid warfare tactics are directly intended to 
erode the credibility of U.S. leadership in the world. And 
internally here at home there is a growing sentiment that we 
should withdraw from the world.
    Isolationism resonates in our own country with people who 
are worried about their livelihoods being taken away by 
increasingly interconnected world and who are increasingly 
weary of being involved in a protracted conflict overseas. But 
this view is populist and perilous.
    You know well, though, that our alliances help prevent 
larger conflict around the world every day and shore up our 
security at home. And in your testimony you have spoken a lot 
about the successes of the European Reassurance Initiative, or 
ERI, to reassure our allies and deter regional aggression.
    What policies, authorities, capabilities have been 
particularly useful in the success of ERI? And then what 
authorities and investments do you still need to complement the 
ERI efforts, especially in the emerging cyber domain?
    General Scaparrotti. Yes, thank you very much.
    In terms of ERI, the focal areas have been the rotational 
force presence that we have, so it supports that rotational 
brigade--armored brigade; it supports the rotational combat 
aviation brigade; it supports our Enhanced Forward Presence, 
the battle group in Poland.
    It supports an expansion and pre-positioning of stops--
stocks of the airfields that we will have available to use day 
to day and in a crisis. It provides the pre-positioning of 
stocks for Army forces so that I can build combat power that is 
not in Europe if I need to in a crisis.
    It has enhanced our training and interoperability with our 
allies. We are doing--I wouldn't say more necessarily; we are 
doing better exercises that are integrated with allies and 
reinforce interoperability that is relevant to the adversaries 
that we will face.
    It has helped us with antisubmarine warfare, for instance, 
which is another area that I noted. So it is very important.
    I would tell you, as I look to the future I will continue 
to need it for those same reasons and more. But it will be 
across all the services and it will tackle the correct posture 
that I need and the capabilities that I need to deter Russia.
    Finally, I didn't mention infrastructure, although I have 
said it several times. It has been fundamental in making 
infrastructure upgrades in airfields, bases, and other places 
that enable the movement of not only our forces but the allies, 
as well.
    Mrs. Murphy. And then, given your experience as the 
commander of U.S. Forces Korea, do you think that the ERI model 
can be effectively exported to the Asia-Pacific region to deter 
provocative and aggressive behavior from actors like North 
Korea and China?
    General Scaparrotti. You know, really it comes down to 
specified funding. And to me it would be--it certainly could be 
a concept used in the Pacific, but I think what is important, 
and what is important even within ERI, is that we have, you 
know, a predictable funding into the future because really, as 
a military that is most helpful. It allows us to plan ahead and 
set objectives in the future and know that we will be funded to 
reach that and set the readiness that we need.
    Mrs. Murphy. Thank you, sir. And I yield back the remainder 
of my time.
    The Chairman. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. It is good to see you 
again, General. I was there with Chris Gibson last summer.
    Just like when we met in Korea, you are very, very candid. 
Your comments about the U-2 in Korea and some of the last time 
on readiness I thought gave us great insight into what is going 
on.
    We were there, one of things I was concerned about is--I 
don't know how you sleep at night. I asked you the same thing, 
I think, in Korea. I think you just have more nightmares in 
this new job than the last one, but we won't go there--because 
I have my own; I am in Congress.
    Anyway, the pre-positions--I am concerned about obviously 
the RAND study, the T-14, the modernization of the T-90, et 
cetera, et cetera, et cetera. And when we were there we went 
out and looked at some of the pre-positioning that had changed, 
and obviously, like the gentleman that had asked you that 
question about the Fulda Gap years ago, boy, we don't have that 
many troops in our pre-positioned forces. We have to go a long, 
long ways.
    And looking at some of the warehouses and the condition, I 
knew it was bad but I didn't think it was that bad. And can you 
comment? Am I just being alarmist about one of 20 different 
things and--but I share those--I don't think we are going to 
have the lift, everything else, if we don't have pre-positioned 
forces and equipment there. I think we are going to be behind 
the power curve.
    General Scaparrotti. We can deal with the challenges we 
have today with the posture we have, but it is at increased 
risk. And it is increased risk. If we have a conflict it is 
going to be increased casualties, it is going to take more 
time, et cetera.
    I will sleep more comfortably as our posture improves. And 
that is why ERI is so important; that is why getting, you know, 
the pre-post stocks that you mentioned in place is important; 
it is why, you know, the service chiefs are focused on 
readiness today to ensure that we have got forces that are 
ready for the challenges they face with a--you know, with a 
peer like--with an adversary like Russia.
    So we have got a good deal of work to do. In the closed 
session I can be more frank about those things that are most 
concerning to me.
    Mr. Cook. I am going to switch gears a little. I am going 
to put on partly a foreign affairs hat.
    Montenegro, the vote yesterday was 98-2 in the Senate. It 
looks like that is going forward. And from a military 
standpoint I think you know about the designs of Russia on that 
country and the importance of that country militarily and 
politically in NATO. So I was optimistic.
    How do you think the possibilities, whether that is going 
to happen--and obviously this is going to give you another 
nightmare or headache or what have you, but I was one of those 
ones pushing for Montenegro.
    General Scaparrotti. Well, I think we have two nations, one 
of which is ours, to confirm that within the alliance, so I 
expect fully that they will be. I think it is critical that 
Montenegro does become a part of the alliance, as is planned.
    For Russia, this is something they did not want to see 
happen. As you know, they went to great lengths to try and 
undermine Montenegro's accession to NATO.
    So I think it is critical that this occurs. And I have said 
before, I think that Russia has every objective of ensuring 
that there is not another country that joins NATO in the 
future. I think that is their objective.
    Mr. Cook. Once again, I want to thank you so much. Looking 
forward to seeing you again over there. And I yield back.
    The Chairman. Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman.
    General, I want to add my voice to the chorus of praise for 
the great work that you have devoted your life to, and we are 
very grateful to you for your service, and you really do have 
an awesome responsibility.
    I am new to this and I am very concerned about the things 
that aren't easy to measure. You know it is easier--and you are 
doing a great job--to measure troop movements and hardware and 
things like that, but in your testimony you talk about, 
``Russia has employed a decades-long strategy of indirect 
action to coerce, destabilize, and otherwise exercise a malign 
influence over other nations.'' And you talk about the 
neighboring states of Moldova and Georgia and the Balkans.
    And then you say, ``Additional Russian activities short of 
war range from disinformation to manipulation. Examples include 
Russia's outright denial of involvement in the lead up to 
Russia's occupation and attempted annexation of Crimea; 
attempts to influence elections in the United States, France, 
and elsewhere; its aggressive propaganda campaigns targeting 
ethnic Russian populations among its neighbors; and cyber 
activities directed against infrastructure in the Baltic 
nations and the Ukraine.''
    So everybody, I think, now agrees that Russia has been, you 
know--Ukraine was easy to see and what they did there was such 
a negative action; and the cyber threats, everybody agrees that 
that is a big part of their strategy these days; propaganda, 
influencing the media; Russian oligarchs spreading money around 
in all different places of the world, from Ukraine to Europe--
European elections.
    So when you talk about the whole-of-government approach, 
they are not as easy to measure these different things that 
they are doing.
    I am a big advocate that we need to give some sort of punch 
in the nose, some sort of clear manifestation that, ``We don't 
like what you are doing,'' and we need to go after the 
oligarchs with financial sanctions and try and pay more 
attention to sending a clear message that you can't mess with 
us that way.
    What is the one thing that you would like to see the whole 
of government--really not just related to more hardware, more 
positioning of troops, more the things that you are advocating 
for--what is the one thing you would like to see the rest of 
government do to give them a strong message that you can't do 
this to us or you are going to have to pay a price?
    General Scaparrotti. Well, I think the whole-of-government 
approach--I think one of the most important things we can do is 
get organized in the information campaign.
    Mr. Suozzi. Whose job is that?
    General Scaparrotti. Well, you know, I think today the way 
it rests is with State traditionally has that. We have the GEC 
[Global Engagement Center]. But again, you know, they have to 
be resourced. We as a government have to say----
    Mr. Suozzi. This is a priority.
    General Scaparrotti [continuing]. And it is a priority, and 
provide the integration, provide them the authority to 
integrate in a way that would have that effect.
    But when you look at the way Russia is working today with 
disinformation, even the way that they approach different 
countries in Europe and in the public world on RT [Russian 
international TV network], Russian TV, et cetera, we have to 
compete in that environment. We have to compete in it.
    We have to show strength that also supports our values. I 
think we ought to be very strong in our values in doing this, 
as well, and I think that would have a great effect.
    It is interesting because in many countries in the East, 
even though they are doing all of this, there are countries 
that the populace is not necessarily swayed by what they hear 
from Russia.
    Mr. Suozzi. Yes.
    General Scaparrotti. That is not true in all of them. It 
depends on where you are at, but it is interesting to me.
    And yet, you know, if we made a greater--a, you know, a 
greater effort in this area, I think we could see some good 
benefit.
    Mr. Suozzi. So you would like to see some more strength 
from America as far as coordinating the information campaign, 
preferably using the State Department as they have 
traditionally done, to try and get this information out there 
and then send a message clearly back to them.
    General Scaparrotti. Absolutely, and to work with our 
allies.
    Mr. Suozzi. I have 59 more seconds in my time, but I just 
wanted to say that, you know, I was speaking to the Italians. 
The Italians' biggest concern of the whole world right now is 
Libya. And, of course, that is the funnel where, you know, they 
have closed off through Turkey and now everybody is coming up 
through Libya.
    What is it we should be doing to try and help stabilize 
Libya or to try and create an environment where that is less of 
a channel for people to be migrating from the rest of Africa 
and the surrounding region?
    General Scaparrotti. Well, Libya is not a part of EUCOM. It 
is AFRICOM's [U.S. Africa Command's] domain.
    What we are doing basically in EUCOM is to assist our 
allies with both the refugees that come from there and their--
the challenges in Europe they have with that, as well as 
countering the transnational threats that are coming out of the 
instability in the north, as well.
    Mr. Suozzi. But you are hearing the same concerns from the 
Italians that that is their big concern is what is going on 
Libya?
    General Scaparrotti. Yes, sir. I mean, if you go to the 
southern part of Europe the more imminent threat to them is--or 
challenge--I wouldn't say it is a threat; it is a challenge--it 
is the continued flow of refugees and the terrorist threat. 
Those two are more prominent than Russia.
    If you go to the east of Europe it is obviously Russia. But 
all of those challenges are true for all the nations in Europe.
    Mr. Suozzi. Thank you, General.
    The Chairman. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman. And thank you, General 
Scaparrotti, for being here.
    I have two questions so I would like to kind of contain the 
first one to the first 2.5 minutes so I can get into the 
second.
    This committee has consistently supported ERI and now EDI 
[European Deterrence Initiative]. In fact, last year we tried 
to shift a large portion of the EDI to base budget funding.
    One of the reasons is that by budgeting through OCO 
[Overseas Contingency Operations] we don't have a complete FYDP 
[Future Years Defense Program] for EDI so we can't plan and we 
can't see how you are planning for these activities. In fact, I 
can't think of much that would concern Putin more than to see a 
5-year EDI plan and budget.
    Can you provide the committee with your best military 
advice on what an EDI FYDP would look like, broken down by 
budget activity, before we mark up the fiscal year 2018 NDAA 
[National Defense Authorization Act]?
    General Scaparrotti. Sir, when we in EUCOM have produced 
our request for ERI we have done it in a very deliberate 
fashion based on the guidance from Congress as to what ERI's 
purpose is across all of the services that support me and 
EUCOM. And so it is a detailed list.
    We scrubbed it against things like--you know, we questioned 
ourselves: Is this something that really ought to be in base or 
ought to be a service expense, not a part of ERI?
    So I think we did a very faithful job of that and provided 
it to OSD [Office of the Secretary of Defense], and we can 
certainly, you know, break that out in terms of we not only had 
the categories but also the prioritization that we provided 
OSD, as well. And assuming that there is no issue there, I can 
tell you we have done the work.
    Mr. Kelly. And you agree that it is much better to have a 
5-year plan rather than a 1-year and we don't know what the 
budget--baseline funding, as opposed to OCO, is much better for 
us to plan and also shows our allies our commitment. Would you 
agree, General?
    General Scaparrotti. I, as I have said before, said that we 
need predictable long-term budgeting so that we can plan out 
ahead, as opposed to a year at a time.
    Mr. Kelly. And thank you.
    And I am an Old Guard member. I grew up in the 1980s. I 
grew up as part of the Reforgers and all those things in 
Europe.
    When we had three ACRs [armored cavalry regiments], we had 
2nd, 3rd and 11th--we may have had more--but those were our 
screening forces. Those weren't even talking about the 
divisions and corps behind them and our commitment to the 
European theater.
    We no longer have that. I actually visited Hohenfels near 
Nuremberg last year and saw the difference in what it looked 
like in the 1980s versus now.
    I am also a big, strong proponent of the National Guard and 
our Guard and Reserves. We have 8 National Guard divisions; we 
have 32 BCTs [brigade combat teams], of which 10 are armored, I 
believe, or heavy BCTs in the Guard and Reserve.
    I also believe in what you said, General Scaparrotti, about 
having that continuous force over there that the people know 
and trust. So I think we need to look outside of how we have 
always done things or how we look and project.
    If we kept one heavy BCT that is an Active Component over 
there and integrated a divisional rotation from the National 
Guard of maybe two heavy and one light or, you know, one heavy 
with another heavy plus a light, it gives training 
opportunities to those division headquarters; it gives terrain 
familiarity; it gives so many things.
    What do you think about that, and including also like your 
engineer and your ADA [air defense artillery] and your aviation 
assets, to go with those Guard divisions on maybe a 5-year--one 
division for 5 years--I mean for 1 year and then, you know, 
through a 5-year cycle.
    General Scaparrotti. Well, you know, as I have said before, 
that is really a service function for them to determine. I make 
the requirement.
    There are a number of ways that--as you said, there are a 
number of ways we can fulfill my requirement and there are pros 
and cons of each. And, you know, as you noted, rotational units 
provide a lot of experience to our force, and it provides a 
force that then has knowledge of Europe. So those are the 
advantages of that.
    Mr. Kelly. And one other thing, I think you can look at 
deployment, your RSOI [reception, staging, onward movement, and 
integration], a little differently. Rather than having to send 
a Guard unit that is 100 percent ready on day one, if you send 
them to the European theater as a division those BCTs can 
actually get those rotations at Hohenfels and other places 
rather than at the NTC [National Training Center].
    And so the end product is a completely trained and ready-
to-fight division and BCTs, as opposed to sending one over 
there that is already ready. I think maybe you get to train and 
be ready across the spectrum. Would you agree with that?
    General Scaparrotti. What I need is a trained and ready 
unit at the point of employment. So certainly we can use our 
capabilities in Europe if that is the most efficient way to get 
there.
    And I would just add that, you know, the Guard plays an 
important role in what we do in Europe every day. The 
partnership that they have formed with each of the countries is 
really quite remarkable--20-some years of relationship that 
builds trust.
    Mr. Kelly. Thank you. And I yield back, Mr. Chairman.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, General.
    First off--and we will be switching direction a couple 
times--do our European partners support the provision of lethal 
defense equipment to Ukraine?
    General Scaparrotti. I haven't discussed that specific 
issue with most of our partners. As you know, there are some of 
our allies in Europe that are supporting Ukraine; they train 
right along beside us. So they are as convicted as we are in 
supporting Ukraine and the protection of their sovereignty. I 
can say that.
    Mr. Gallego. And switching gears--thank you, General, for 
that answer--how should we holistically approach deterrence in 
our response to hybrid threats in Europe specifically from 
Russia? Are other measures such as sanctions effective in 
dealing with hybrid activity, or should we be looking at 
potentially a military response for some level of hybrid 
activity?
    General Scaparrotti. First of all, I think, for instance, 
you mentioned sanctions. Again, I think that a response to 
Russia has to be a whole-of-government approach, and that is 
the economic part of that that is important that we retain.
    As I have said, I think demonstrating strength in every 
area is significantly important with Russia. I think that we 
have got to have the right posture of our military.
    And when you look at deterrence you look at capability, 
credibility, and then communication. And communication being, 
do we communicate our intent and our objective, and does Russia 
understand that so there is no miscalculation? And then a part 
of that military is an enhanced missile defense, as well.
    Mr. Gallego. I yield back my time.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. And, General, good to 
see you again. Thanks for being here and thank you for your 
service to our country.
    I especially appreciated your comments earlier today about 
the United States needs to provide some lethal force capability 
to the Ukrainian military. I have been there twice and going 
back next month, and they are begging for something to fight 
with. And this is a life-or-death battle for them, so I 
appreciate your candor on that.
    I want to talk to you first about the INF [Intermediate-
Range Nuclear Forces Treaty]. In your best military 
professional judgment, do you believe that Russia in the 
foreseeable future will return to compliance with the INF 
Treaty?
    General Scaparrotti. I don't have any indication that they 
will at this time.
    Mr. Rogers. How much longer do you think that the United 
States should continue to unilaterally comply with that treaty?
    General Scaparrotti. Well, that is really a policy 
decision. What I would say is that, from my perspective, is 
that we have to respond to their violation of that treaty one 
way or the other. We have to take steps; we have to address it. 
But----
    Mr. Rogers. What steps would you take?
    General Scaparrotti [continuing]. It is a policy matter.
    Mr. Rogers. What steps would you take? What would you 
recommend to the President that we take?
    General Scaparrotti. Well, first of all, I think we 
confront them and then we consider what actions we might take 
in terms of our capabilities in order to deal with the advance 
that their violation of the treaty incurs--in other words, the 
risk that we are taking because they are not following that 
treaty and how do we respond to it.
    Mr. Rogers. Okay. I want to turn to the nuclear weapons 
ban. What are some of the military risks to the alliance and 
our allies if NATO members sign onto and thus comply with the 
draft of a U.N. [United Nations] nuclear weapons ban that is 
currently being negotiated?
    General Scaparrotti. My view is that the nuclear weapons 
ban is just not realistic. I mean it is occurring in a world 
where we have North Korea, in particular, who is in violation 
of U.N. sanctions and resolutions--multiple ones--and show no 
respect for the international community's directive; Russia, 
who is also aggressively improving their modernization of their 
nuclear weapons, et cetera.
    So I think we are in a world today where that is just not 
realistic at this point.
    I think it is something that probably all of us would like 
to see and, you know, a world without nuclear weapons. But I 
don't think we are at the point to exercise that ban at this 
time.
    Mr. Rogers. Do you believe that it would be inconsistent 
for NATO members who have signed on to the Warsaw Communique to 
also sign on to that treaty?
    General Scaparrotti. Again, that is each nation's sovereign 
decision, but I think it would be.
    Mr. Rogers. Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. There are a lot of questions we ought to get 
to here and probably quickly to the classified hearing, so I am 
going to be very quick.
    Our new President has created considerable concern about 
the role of the United States vis-a-vis the European Union and 
NATO. Has that uncertainty caused you problems in your work as 
NATO--with NATO?
    General Scaparrotti. No. Our mil-to-mil relationships 
within the alliance are strong. We have continued to do what we 
need to do as an alliance of military components to protect the 
transatlantic region.
    Mr. Garamendi. Is there clarity in your mind as to what the 
administration's policy is with regard to NATO?
    General Scaparrotti. The Secretary of Defense attended the 
last defense ministers [meeting] and had sat through 2 days of 
sessions and was very clear in terms of America's commitment to 
NATO as well as in Munich at the Munich Security Conference. 
And the Vice President spoke there, as well. So I think that 
they were very clear in our commitment to NATO.
    Mr. Garamendi. Well, that is not the entire story, is it? 
There are other people that have commented in various ways.
    General Scaparrotti. What I would say, Congressman, is that 
there has been uncertainty throughout our election, et cetera, 
that the Secretary and the Vice President spoke on behalf of 
the administration. I do believe that Secretary Tillerson's 
attendance at the foreign ministry--at the foreign ministers 
conference coming up, as well as the President's attendance in 
May, will reinforce our commitment.
    Mr. Garamendi. Is it important in your work that there be 
clarity from the administration with regard to its commitment 
to NATO and Europe?
    General Scaparrotti. Yes.
    Mr. Garamendi. Well, we will hopefully have that in the 
near future.
    Down into the weeds for a few moments, you mentioned the 
issue of being able to move material and troops and the role of 
the civilian organizations in doing that. We have a hearing 
coming up at the end of this week with TRANSCOM [U.S. 
Transportation Command], and specifically on the issue of 
ships, the Ready Reserve, and the MSP [Maritime Security 
Program].
    Do you see the--are--do we have sufficient ships, planes, 
to address any contingency that you might face as your role in 
EUCOM?
    General Scaparrotti. Again, that is best answered by them, 
but I can tell you from my experience in the past year and a 
half that they and I have concern about particularly our 
civilian support in both ships and air, and that we have to 
invest in those.
    I haven't recently sat down with them to get the actual 
facts, but that is my view in dealing with the planning that we 
are--we have done.
    Mr. Garamendi. Well, your last two commands have been at 
the far ends of the world, so you would know. I think I will 
let it go at that point.
    Thank you, and I yield back my time.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. And thank you, 
General Scaparrotti, for your leadership.
    You and I have had the opportunity to discuss the 
importance of countering Russian propaganda and malign 
influence in the information space, and during our last 
conversation you mentioned the Russia Information Group, which 
is a working-level interagency group to counter Russian 
aggression. And I am pleased to see the efforts of this group 
and the State Department's Global Engagement Center.
    But my question for you is: What aren't we doing that we 
need to be doing in this area to more effectively counter 
Russian propaganda? We discussed a lot of the improvements that 
have been made in terms of grappling with this issue, but what 
more do we need to be doing?
    General Scaparrotti. Well, I think, you know, we do have a 
structure. We have the group that you mentioned, for instance, 
that is multiagency, et cetera.
    But we actually have to, you know, provide it direction and 
resourcing on a larger scale than has been done to this point. 
That is the first thing.
    Second thing is I think we have to be more direct in our 
values and our messaging. If we think back to Voice of America, 
there is--in Europe today there are those in the eastern 
countries that tell me that they recall when they were in the 
Warsaw Pact hearing Voice of America and the difference it 
made. Those are the kind of things we need to do on a greater 
scale than we are doing today.
    Ms. Stefanik. So let me ask you this: As you know, in last 
year's NDAA we expanded the mandate of the Global Engagement 
Center, which is within the State Department, to include state-
sponsored entities of propaganda such as Russia. How can we 
empower the Global Engagement Center? And a larger question is, 
is that the right coordinating body within the State 
Department?
    General Scaparrotti. Again, I think whether that is the 
right coordinating body I think is probably best determined by 
the State Department, not I. I really can't tell you best how 
they should organize for this.
    But I think it is a good start. It is an agency that we 
know we can go to that is empowered within State to conduct 
this mission.
    And so, again, my experience with it is that this is on a 
much smaller scale than we need today. We have an opportunity 
here, I think, to focus on this. And perhaps with a new 
administration, et cetera, we can begin to empower that more 
and reinforce it.
    And whether that is exactly the way it should be, I think 
we will see as time goes on.
    Ms. Stefanik. You mentioned in your response to some of the 
other questions the importance of working with our partners. 
What can we do to better leverage more the NATO Strategic 
Communication Center of Excellence in Latvia, similar to the 
way that EUCOM and NATO leverage the NATO Special Operations 
Headquarters?
    General Scaparrotti. Yes. We in EUCOM are actually 
connecting with that node. We in EUCOM are connecting with EU 
and NATO, for instance.
    So what we are trying to do is form nodes, and on the cyber 
side that is a very important one in Estonia. And then, through 
that, reinforce this network that defeats a network, so to 
speak. That is what we have to do. And so we are working--I 
mean, that is one of our basic models within EUCOM to empower 
that.
    And, on the NATO side, they have approved a strategic 
direction, is what I would call it there, that enables parts of 
our chain of command within NATO to link with EUCOM's command.
    So I think there are the beginnings of this. We just need 
to begin to reinforce it and develop it.
    Ms. Stefanik. And my last question is, 2 years ago in the 
fiscal year 2016 NDAA this committee noted concern about hybrid 
and unconventional threats and directed DOD to submit a 
strategy for countering unconventional and hybrid threats. 
Unfortunately, the DOD has yet to submit or even begin to 
coordinate with other government agencies.
    In our language in the NDAA we also noted that, quote, 
``Most state sponsors of unconventional warfare, such as Russia 
and Iran, have doctrinally linked conventional warfare, 
economic warfare, cyber warfare, information operations, 
intelligence operations, and other activities seamlessly in an 
effort to undermine U.S. national security objectives and the 
objectives of U.S. allies alike.''
    First, do you agree with this assessment still and the need 
to develop such a comprehensive whole-of-government strategy? 
And second, in terms of countering hybrid warfare, are we any 
closer to linking all of our tools and capabilities?
    General Scaparrotti. I agree that we have to have a 
holistic, whole-of-government strategy, as you stated. I think 
we are closer. I think we, you know, we are not sitting still; 
we are making progress.
    And particularly, I can speak to the military side of this. 
As I said, we are working with our allies through established 
nodes. Our special operations forces, in particular, are very 
good at this and they are active, not only in what they can 
provide us in this domain but also building capacity with our 
allies.
    Ms. Stefanik. Thank you.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thanks, Mr. Chairman. General, welcome.
    I have a question to clarify some Pentagon math I am trying 
to figure out. It goes--and maybe you can help--it goes back to 
your comments about wanting a division in EUCOM. So I am trying 
to figure out, were you suggesting that you wanted an 
additional brigade on top of the two brigades to get to a 
division, or are you suggesting an additional division on top 
of two brigades?
    General Scaparrotti. Yes. I am suggesting an additional 
division, because what I need is I need armored and mech 
[mechanized] brigades. The two I have there today are, you 
know, a cavalry, light cav, as well as an airborne infantry 
brigade combat team.
    Mr. Larsen. Yes. And then along with that, a headquarters, 
presumably?
    General Scaparrotti. Yes, and the enablers. But the reason 
a division is so important is because it is at that level you 
can then have the command and control, communications, 
capability to integrate the different domains in the way we 
fight. And then that division brings the enablers, like 
appropriate artillery, engineers, air defense, et cetera, that 
fill out a proper defense.
    Mr. Larsen. And then does that--does your concept then come 
with additional pre-positioned forces--or equipment, that is, 
pre-positioned equipment? Are we looking at supporting the 
division with pre-po or equipment coming with the division 
itself?
    General Scaparrotti. Today the pre-position stocks that we 
are building are an integral part of that division so that it 
would--so that people would fly over, fall in on, and I would 
have a division filling that out. So that is the plan today. 
The plan today is a rotational brigade, and then a pre-po that 
provides the remainder of the resources.
    Mr. Larsen. All right, thanks. Thanks for clarifying that. 
Appreciate it. Pentagon math, sometimes pretty easy.
    Can you talk about a little bit the high north? There are 
some comments in your written testimony on Russia's investment 
in its area of the Arctic, which there is some rational basis 
to that because as the ice recedes they no longer--nor can much 
of anyone--rely on the ice to sort of protect your surface.
    We are active in the Arctic Council--the U.S., along with 
Russia and Norway and five other countries, as active members 
of the Arctic Council, and a lot of observers, as well. Just 
kind of what--since it is mentioned in your written testimony 
about the high north, what do you suggest from a EUCOM 
perspective, or even from a NATO perspective, would be an 
appropriate response?
    General Scaparrotti. Yes, sir. I agree that, you know, we 
have typically looked at the Arctic as a place for commerce, a 
peaceful place, not a militarized part of the world. And what I 
see today is Russia refurbishing some of its older bases. They 
are placing in radar, ground forces, et cetera, that could 
potentially influence the free flow of trade in the Northern 
Sea Route.
    I think our concern is that--they certainly, as you said, 
you know, that trade route follows most closely to their----
    Mr. Larsen. Right.
    General Scaparrotti [continuing]. You know, to their 
border. So they have the right to take steps that most 
countries would take to secure that.
    I think most of our influence is whether they are taking 
steps that would influence, then, internationally accepted free 
flow of trade in the North Sea or along the North Sea Route.
    Secondly, I am concerned about the high north because their 
Northern Fleet operates out of there, and they are building 
capabilities in that, as well, that, just as we did in the Cold 
War, we have to properly deter and be aware of.
    Mr. Larsen. Yes, that is great. Thank you very much. I 
yield back.
    The Chairman. Mr. Knight.
    Mr. Knight. Thanks, General.
    I just have a couple brief questions. I was one of those 
Grafenwoehr, Reforger, Fulda Gap kind of guys. And looking at 
the map here, just a quick question to kind of help us 
understand.
    As we were there in the 1980s and there was a totally 
different aspect of having 50 posts over there and, you know, I 
don't how many hundred thousand troops were there, compared to 
today, when NATO is so much different and we have so many more 
countries that we are working with.
    When I was over there with the chairman a couple years ago 
we were watching Polish soldiers and we were in Romania and it 
was very enlightening to me to watch the Poles and the 
Americans work together, and it was just easy to see the 
symbiotic relationship that they had there.
    Tell me how that works. When we are doing three rotations, 
either a unit is there, a unit is coming home, or a unit is 
preparing to go. How does that work well when we are talking 
about Polish soldiers and Romanian, that we can work together 
and use them for certain areas that we couldn't back in the 
1980s, obviously, because of the change to NATO?
    General Scaparrotti. Well, sir, first thing I think about 
is the fact that, as you mentioned, our allies in NATO and in 
Europe, not just--but our partners as well as those 28 nations, 
you know, they have been overseas with us in Iraq, in 
Afghanistan, in other areas--Bosnia, Herzegovina, et cetera. 
Over the years we have developed relationships and we have 
refined interoperability.
    Secondly, we are a force that is used to deploy. I mean, 
our--all of our military forces, of all services, are good at 
expeditionary operations and routinely deploying and falling in 
with host nations, with allies. We have really developed this, 
and I think that makes a difference. It is what you are talking 
about.
    And so when you see the ease that we work with the Poles, 
for instance--you mentioned them. I served with the Polish 
elements in central Iraq; I served with them both tours in 
Afghanistan. I know many of their leaders. Our forces are used 
to working together. So when we fall in we know how to 
communicate, we know how to make those linkages, et cetera.
    Mr. Knight. Yes, and I am going to yield back here, Mr. 
Chairman, but I think that that is one of the most important 
things to our military right now is our connections to the 
allies and our connections over the last 20 years or more, even 
going back to the early 1990s, where we have been in combat 
with a lot of these folks and we have seen how they react and 
we have been training with them and they have been training 
with us. So it is a very close relationship.
    Thank you, Mr. Chair.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you, General, 
for your testimony.
    Just want to follow up on Mr. Larsen's questions regarding 
the high north and the Arctic. I mean, you described, I think 
very pointedly, the upgrade in terms of military facilities 
that Russia is engaged in in that part of the world.
    There is another aspect, I think, which I wanted to focus 
on a second, which is that they have actually filed a pretty 
aggressive claim through UNCLOS [United Nations Convention on 
the Law of the Sea], in terms of continental shelf rights. And 
I just wondered if you could sort of talk about that in terms 
of, again, your concerns about making sure, you know, maritime 
freedom of the seas continues.
    And, of course, as I think you are probably expecting, I 
just wanted to ask whether you think the U.S. should actually 
stop handcuffing itself and ratify that treaty so we can get 
into these kinds of claims--international claims process.
    General Scaparrotti. Yes, sir. First of all, I don't know 
the details of their claim, but that is obviously one of the 
concerns that we have about this for the future. And I do 
believe that we should be a part of the UNCLOS Treaty.
    We adhere to those--to the international norms today 
already, as most nations do. That simply gives us an actual 
seat at the table and a vote legally, et cetera.
    Mr. Courtney. I mean, as we found out with the South China 
Sea, we actually were not even allowed standing to participate 
in that ruling----
    General Scaparrotti. Right.
    Mr. Courtney [continuing]. Which, again, had just huge 
consequences in terms of our country's military, you know, 
posture, et cetera.
    So you have also mentioned, you know, again, the focus that 
you are engaged in in terms of antisubmarine warfare in your 
opening remarks and a couple other questions.
    I guess what I would like to ask is the Office of Naval 
Intelligence has a document which is unclassified, the Russian 
Navy Historic Transition, which sort of walks through some of 
the new shipbuilding activity that Russia is engaged in.
    So in terms of, you know, we--you are saying we need to 
have antisubmarine activity. Why? I mean, what are they doing 
with submarines?
    General Scaparrotti. We remain dominant and--you know, as 
we have been in that arena.
    My point is we can't be comforted by that. They are 
producing several different classes of new submarines. They are 
very capable and will challenge us, and so we--and we do have 
plans to increase ours, but we need to continue to invest in 
that, as well as those other systems that help us with 
antisubmarine warfare. And I can talk to that in more detail in 
a closed session, as well.
    Mr. Courtney. Thank you. Because again, as the--this 
unclassified document makes clear, I mean, just based on 
Russia's geography, I mean, the submarine force is the backbone 
of the Russian navy. It is just where they, you know, where 
they are situated, that is the platform that can get them out 
into international waters. Isn't that correct?
    General Scaparrotti. That is true. The other thing I would 
point out is the systems that they are placing on them today 
gives them good reach from wherever they are located, as well. 
Black Sea, et cetera.
    Mr. Courtney. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    And it is an honor to have you here today. Thank you for 
your leadership and your hard work, and thanks for bringing 
your
J-5/8, one of the smartest guys I know. Good to have him here.
    I wanted to just start off by saying I second your desire 
to put more ground forces in Europe. I think we need it for 
deterrence. I think it is needed to reassure our Polish and 
Baltic friends, in particular.
    One of the most important missions that you have, in my 
view, too, is the ballistic missile defense mission that we are 
doing with Israel right now. Can you give us an update where we 
are at with that? Are we at a status quo? Are we building onto 
it? What else do you need for that important mission?
    General Scaparrotti. Israel, as I said in my comments, is 
one of our--it is a special ally, but it is one of our closest 
in Europe. Our staff has very regular and a routine exchange of 
intelligence and discussions with them. I mean, it is 
remarkable.
    We are just now going through another one of our exercises, 
and a part of that is the missile defense so that we stay 
trained as partners in that mission.
    That mission is very solid. We continue to train on it; we 
continue to increase capabilities. The Israelis continue to 
increase their capabilities, as well.
    I do have some needs with respect to that. I am very 
confident of our ability to support Israel, but I have some 
needs with respect to that, and I can talk about that in a 
closed session more specifically.
    Mr. Bacon. One of the concerns I had--and I was part of 
that mission early on down at Ramstein--is the mismatch between 
Iran's capabilities versus how to defend. And a lot of this 
defense becomes really deterrence or counterstrike so that they 
fear, you know, doing the first strike. But that takes a lot of 
coordination with CENTCOM [U.S. Central Command].
    How is that coordination with two different COCOMS 
[combatant commands] where that seam is right there?
    General Scaparrotti. An experienced question from having 
dealt with this seam, but actually, it works very well. We have 
done integrated planning now any place that we have that the 
seams, you know, interfere with a plan or be a subject of a 
plan.
    So the dynamic of this environment that we live in, where 
virtually everything that any one of our COCOMs deals with is 
multiregional, it has some connection across their border, we 
have become much more agile at working with each other. I am 
very confident of our relationship with COCOM, actually, with 
CENTCOM in particular.
    Mr. Bacon. One last question. We want to expand our 
presence in EUCOM, but yet we are still--we are continuing to 
reduce our infrastructure there. And when I came in in 1985, I 
think we have cut our presence in Europe by over half, maybe 
two-thirds even.
    And when I was the commander at Ramstein I note that we 
were continuing to find bases that we wanted to close. Is it 
prudent to continue to close multiple bases in Europe while we 
are trying to expand and expand deterrence with Russia?
    General Scaparrotti. Yes. We have actually taken a look at 
this since I have been in command; I am sure that General 
Breedlove did before me.
    A good many of those that we had planned for closure I 
agree with moving on. We have got about 15 left now; there are 
some of those that we are looking at that I think is worth 
another look, given the dynamics of the day, because we have 
got to get our posture right.
    So I think holistically, as a program, it was profitable, 
but there are some of those today that we are going to take a 
look at that remain.
    Mr. Bacon. Okay. I appreciate that you are re-looking at 
that. My instinct tells me we are cutting too much. At the same 
time realizing that we want to expand, it just doesn't make 
sense. So thank you.
    Chairman, I yield back.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    General, I have got to tell you, your presentation here is 
so compelling, and I really appreciate the clarity with which 
you spelled out the infractions--maybe that is too timid a word 
to use--but the infractions that Russia has engaged in over 
these many years. Have you had the opportunity to brief the 
President?
    General Scaparrotti. I have not.
    Ms. Speier. If you were in a position to brief the 
President and were asked, would you recommend that the 
President condemn these violations by Russia, in terms of the 
INF Treaty and the CFE Treaty [Treaty on Conventional Armed 
Forces in Europe]?
    General Scaparrotti. Well, I think, you know, first of all, 
I give best military advice on our military activity, et 
cetera. That would be a decision that the President would have 
to make.
    Ms. Speier. No, I understand that. But do you think that 
the conduct by Russia rises to the level that would suggest 
that we speak out publicly about Russia's engagement in so many 
areas that border Russia?
    General Scaparrotti. I would say personally that I believe 
that we should confront the Russians on the violations, et 
cetera. I have said that publicly, and that would be consistent 
with my personal opinion or advice.
    Ms. Speier. Do you think that they have engaged in enough 
bad behavior that we should impose greater sanctions on them?
    General Scaparrotti. Again, I think that is something that 
is considered holistically, but I think that there is--that 
more, probably, we need to do across the entire government in 
order to have the proper influence on Russia.
    Ms. Speier. You have spent a fair amount of time, certainly 
last week and I believe today as well, when you testified in 
the Senate about the Russian information warfare campaigns that 
they have engaged in. And I couldn't agree with you more. I 
think that we have been asleep at the switch in terms of, you 
know, showing a countervailing force to their misinformation.
    Do you think that in order to kind of beef up our efforts, 
besides funding Voice of America to a greater degree, what else 
would you recommend that we do?
    General Scaparrotti. Well, I think that we have to within 
our government determine a lead agency that is empowered to 
integrate the remainder of our government in the information 
sphere; and then resource, whatever that resourcing level would 
be, in order to get our message out in a way that is at a level 
that it has influence.
    I just don't think that we are organized to do what we are 
capable of doing, in terms of the information and the message 
that we send. And this isn't just about a message to Russia. 
This is actually about assurance to our allies, et cetera.
    Ms. Speier. There has been some misinformation, I think, 
that has been offered up regarding the New START Treaty 
[Strategic Arms Reduction Treaty] with Russia. Do you think it 
is a bad deal?
    General Scaparrotti. As I look back on the treaties and 
understanding why they were put in place, I think they are 
actually productive. What we need is to ensure that everyone 
that is a part of the treaty adheres to the treaty, and then if 
they don't we decide what steps ought to be taken, as opposed 
to--in another words, we have to acknowledge whether the treaty 
is actually in force.
    You know, for CFE the Russians have said--I think about 
2011 or so they said that they were setting it aside. So these 
are things that we need to come together and address.
    Ms. Speier. There was an article in the New York Times, a 
huge spread, yesterday on, ``is our military big enough,'' and 
showed, you know, how some of our greatest adversaries, Russia 
being one, spend $60 billion a year on its military and we 
spend $540 billion. There was a lot of interesting commentary 
in that piece about--by persons arguing that, you know, you 
build up a force when you are going to war.
    Do you have any comments about that piece? Did you read it? 
And if you haven't, I would really be interested in you going 
through it and giving us some advice on what you agree with and 
what you don't.
    General Scaparrotti. All right, thank you. I haven't read 
it, but I would--I will read it and I will provide you a 
response if you would like.
    Ms. Speier. Great. Thank you. I yield back.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman. And, General, 
thank you and your command for all you do for our Nation.
    I have a question. I am going to go back to Turkey here for 
a little bit. You made a statement that Turkey has long been 
and remains an ally of the United States. That word 
``remains,'' why did you put that in there?
    General Scaparrotti. It just happened to--I put it in there 
because they remain an ally. To be frank, you know, there is 
some concern about their drift, given some of the drift to 
authoritarianism. I would tell you that they remain a close 
ally with us.
    I have spent a good deal of time in Turkey. I have a good 
relationship with their chief of defense and we are focused on 
transparency with them, on supporting them in their objectives 
as well as ours, with respect to countering terrorism and the 
coalition efforts in Syria. So that is going well, but I do 
have concern.
    Mr. O'Halleran. Okay. And your statement also identifies 
that it--that Turkey maintains a complicated relationship with 
Russia. Given its position in the Black Sea, and with Syria and 
Iran and the--its internal conflicts, and everything else that 
is going on in that area, along with its Russian issues, what 
is the status of the U.S. military relationship with Turkey, 
which I think you answered a little bit? What are the 
challenges moving forward? And what are the implications, given 
the Russian actions in the region?
    General Scaparrotti. Again, our mil-to-mil relationship is 
very good, and despite the attempted coup and the many 
challenges they face, they have been very committed to both the 
support of and protection of our forces that operate out of 
Turkey and are important to our coalition efforts.
    Of the challenges that we have, certainly we see all the 
challenges there that we see in Europe. I mean they have an 
internal insurgency, a terrorist fight against PKK [Kurdistan 
Workers' Party]. They have the refugee issue, about 3 million.
    And then they have a conflict on their border, where we 
have troops and are operating as well as Russia, Iran, and 
others. That is a challenge. And that is part of what we spend 
a good deal of time on, making sure that we are transparent 
with each other, we understand each other's objectives and 
figure out how we can be complementary in that.
    But it is probably the most difficult problem set I have 
seen in my career, frankly.
    Mr. O'Halleran. And I am sure we can go in further on that, 
but the--I have sat here and listened to the word ``State'' or 
``State Department'' mentioned many times and, you know, we 
have a cut proposed by the President in the State Department 
budget. What is the importance of the State Department in your 
role and your ability to complete your mission?
    General Scaparrotti. Well, the State Department as well as 
the other agencies are fundamental to what I do in Europe. 
Again, I strongly believe in a whole-of-government approach. I 
think that we lead with diplomacy in the State Department, that 
the military's posture there is to--intent is to give muscle to 
that diplomacy.
    You know, our intent is that we never have to employ our 
military in a conflict in Europe, that we prevent conflict. And 
to do that we need a strong diplomatic corps.
    Mr. O'Halleran. And I guess that is the--just a comment, 
that is the issue in my head that is problematic as far as any 
cuts to the State Department, given the other issues that we 
have in the world and the need for us to maintain strong 
relationships with all these countries, and especially 
countries like Turkey, which are so complicated.
    And I yield. Thank you, General.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General, thank you for your testimony here today and thank 
you for your great service to our Nation. I regret that I 
couldn't be here for the early part of the hearing. I was in a 
competing hearing on--dealing with cybersecurity issues, which 
is another important topic of national security importance.
    But I thank you again for your testimony. So I apologize if 
some of the things I may have--I may ask have already been 
covered, but let me get to it.
    So, General, I understand that Secretary Tillerson has 
recently decided to forgo meeting with his NATO counterparts in 
April and instead travel to Russia later in the month. You 
know, I wanted to get your perspective on what does this say to 
our NATO allies that our Secretary of State is choosing to 
visit with Russia--a nation, by the way, that has meddled in 
our elections and possibly colluded with the administration--
rather than meet with them?
    General Scaparrotti. Well, as always, you know, when NATO 
meets, particularly for the foreign ministers conferences, you 
know, they welcome the United States representative there as 
one of the central members. It is my understanding now that the 
meeting will be on the 31st of March and the--NATO agreed with 
the United States to find a date that was good for all allies.
    And so at least my last report, I expect that we will have 
the foreign ministers on the 31st of March and Secretary 
Tillerson will be in attendance.
    Mr. Langevin. Very good. Thank you for that update.
    General Scaparrotti. Thank you.
    Mr. Langevin. So, General, I know that we just sort of 
touched on this topic with my colleague who just spoke before I 
did, but following the President's release of his skinny 
budget--so I am highly concerned about the potential cuts to 
the State Department budget, which proposes a 28 percent 
reduction from last year's levels.
    We spend money through the State Department and USAID [U.S. 
Agency for International Development] in order to further 
international diplomatic relations so that we might avoid and 
prevent war. So with a cut like that, what effects do these 
cuts have in the EUCOM arena, and how will they hinder our 
allies as we collectively seek to deter an aggressive and 
unruly Russia?
    General Scaparrotti. Yes, sir. I can't comment on the cuts 
themselves or the impact that might have in Europe. State 
Department will determine that.
    But I have said here that the importance of the State 
Department and the work that we do in European Command is just 
fundamental.
    I have a deputy, for instance, my senior POLAD [Foreign 
Policy Advisor], is an ambassador and plays a significant role 
in my headquarters, as do--as does State and all the embassies 
in all of our missions in Europe. So I think it is paramount 
that we maintain the capacity to continue to work as a team.
    Mr. Langevin. Okay. General, something that is probably 
often overlooked is that EUCOM is the primary resourcer of 
personnel and equipment to AFRICOM, which is a growing area of 
security challenges, if you will. And how does that draw of 
resources, is that hindering your ability to do your job in the 
EUCOM arena? And are we not properly resourcing the AFRICOM 
arena at this point?
    General Scaparrotti. Yes, sir. The relationship between I 
and AFRICOM is actually quite good. We do share component 
commands, and often we deploy forces in support of AFRICOM's 
operations, so it is working.
    It does impact from time to time on my mission as well as 
General Waldhauser's, because we have a force that is pulled in 
two different directions at times.
    My greatest concern is making sure that we understand risk, 
I and General Waldhauser, with the Chairman of the Joint 
Chiefs, that when we deploy forces that haven't been planned 
for, say a response to a potential crisis or a mission in 
AFRICOM, that I can verbalize the impact on the EUCOM 
commission and that we as leaders understand the risk that we 
are taking in that regard.
    That is another way of saying that I think we do need more 
force structure there. This is working okay. It is a good 
working relationship. But it does from time to time put a 
strain on our force and its readiness.
    Mr. Langevin. All right. Is your assessment that we are too 
often taking too much risk in----
    General Scaparrotti. No, not too often taking too much 
risk. There have been a couple of times in the year that I have 
been in command, probably two, that I was concerned enough that 
I, you know, that we had a discussion and I had a discussion 
with the Chairman and we--so that we all understood and made 
the appropriate decision. And so I am confident that we can 
make the right decision and not take unnecessary risk, but that 
is--so that gives you an idea of how often that comes up in a 
year's time.
    Mr. Langevin. Thank you, General. I have other questions 
that I will submit for the record. But I will yield back. Thank 
you.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you, General. And I am going to make this real brief 
and ask you to answer for the record so that we can keep our 
schedule moving along here today and also because elements of 
your answer might be more appropriate in a closed setting.
    But I represent Fort Carson, which has an armored brigade 
combat team over in the Baltics and Bulgaria and Poland. They 
are doing a great job. They are rotational as opposed to 
enduring, like you were saying earlier, but I think it has 
great promise for the future.
    But what are the challenges that we are learning from this 
extended rotation as far as infrastructure and host country 
capacity and things like that? That is a sensitive topic that I 
will just take for the record.
    And then also, what are our readiness challenges that we 
are learning and that we need to improve on from a funding 
standpoint?
    I hope to go over and see these great troops later this 
spring, but if you could supply those answers for the record I 
would appreciate it.
    General Scaparrotti. I will. Thank you.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Lamborn. Thank you so much.
    The Chairman. General, we haven't really today touched on 
your role in dealing with the terrorism threat in Europe. Could 
you just touch on that briefly?
    General Scaparrotti. It is one of the central challenges, 
Chairman, in Europe and with our allies today. In EUCOM we 
formed a cell as a part of the headquarters that addresses 
counter--transnational threats to counter those. It is 
multiagency; it is not just military.
    And our concept is a tri-nodal concept of where we are 
building a relationship with EU, and particularly the Europol, 
and through the EU nations as well as NATO with a headquarters 
in JFC [Allied Joint Force Command] Naples, and then with our 
other partners, as well, outside of NATO, to really strengthen 
that network.
    Everything from information and intelligence sharing, 
analysis of the transnational threats as, you know, as well as 
capability--sharing capabilities, building partner capacity, et 
cetera.
    It struck me as I was there that we have, particularly 
within the alliance, an organization with headquarters, 
processes, troops if needed, ready-made in order to form a 
response to this. And all 28 nations in NATO are part of the 
coalition to fight ISIS today, so I think it fits well and it 
is one of the key things that we do in Europe.
    The Chairman. And on the 28 nation, did I understand you 
earlier to say that 22 of the 28 nations are increasing their 
defense spending this year?
    General Scaparrotti. That is correct, 22, and 10 within 
the--there is a 20 percent mandate toward modernization. Ten 
nations have met that as we go into the year. So that is good 
news. We expect to see that improving, as well, as we go 
forward.
    The Chairman. And you have had several questions today 
about the European Reassurance Initiative and any investments 
we are making in infrastructure and so forth to make that work. 
Are the Eastern European nations making investments toward that 
goal as well?
    General Scaparrotti. Yes, Chairman, they are. In every 
country they have invested themselves in facilities to support 
our mechanized and armored units, in terms of motor pools, et 
cetera. Barracks facilities, also transportation hubs for the 
movement of forces.
    And so they have also invested. And I think it underscores 
the importance that they see in our efforts as well as NATO's 
Enhanced Forward Presence.
    The Chairman. Finally, just a comment. General, today you 
have gotten a number of questions about Russian violations of 
the INF Treaty and you have also gotten a number of questions 
about information warfare, for lack of a better expression.
    Both are subjects of some frustration for me. I wrote 
numerous letters and had numerous briefings on the INF Treaty 
violations to try to get the Obama administration to take this 
more seriously, to call the Russians' hands, to have an 
adequate response. And for some reason they were reluctant to 
do so.
    On information warfare, Mr. Smith and I have been pushing a 
whole-of-government approach to being more engaged in this ever 
since the Bush administration, when it became clear that the 
terrorists were doing a better job than we in information 
warfare, through the Obama administration.
    I am glad to have more people engaged in these issues. We 
have got some new converts now.
    But my point is I want to encourage you to continue to have 
a strong voice within the military and, because of your--both 
of your hats, within the government at large. Because for 
whatever motivation, our government needs to take treaty 
violations more seriously and to develop better capability on 
information warfare. I think you can help.
    We will certainly be pushing that, as well. And as I say, I 
am glad to have some new converts to those causes.
    With that, this hearing will stand adjourned. And in 
roughly 5 minutes or so, if it is okay with you, we will get 
back together upstairs in a classified session.
    Thanks.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             March 28, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2017

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 28, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LAMBORN

    General Scaparrotti. As the first of continuous ``heel-to-toe'' 
rotations of heavy brigades to deploy a full armor equipment set and 
personnel from the United States to Europe, we are continuously 
learning specific infrastructure challenges. We are testing logistical 
networks, transportation routes, host nation capacity, infrastructure, 
and the supporting capabilities of the NATO Force Integration Units 
through a series of multi-national exercises and the simultaneous 
rotation of the inbound 2/1 rABCT and outbound 3/4 rABCT in September 
2017. So far we have validated transportation issues such as limited 
access to rail and the low availability of EU compliant trucks and 
trailers. ERI investments from FY15-FY17 funded upgrades to several 
rail heads, vehicle maintenance facilities and training areas with 
several projects already complete or currently underway. ERI also 
funded improvements at several airfields that will enable the 
deployment and positioning of combat and mobility airpower. With our 
NATO partners, we continue to focus on rapid mobility, capturing 
lessons learned, and identifying gaps at airfields, seaports, rail, 
transportation, storage and distribution centers, and life support 
areas. Finally, ERI is also funding meaningful exercises for the rABCT 
that facilitates extensive exercising with Allies which maintains the 
brigade's readiness at a high level.   [See page 36.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 28, 2017

=======================================================================

      

                    QUESTIONS SUBMITTED BY MR. SCOTT

    Mr. Scott. The E-8C Joint Surveillance Target Attack Radar System 
(JSTARS) plays a critical national security role supporting combatant 
commands around the globe. In your previous position as Commander of 
U.S. Forces Korea you had personal experience with the weapon system 
and expressed its value in your Korean theater. With its ability to 
sweep large areas with its wide area surveillance radar and ability to 
provide responsive on-scene command and control with its battle 
management crew, it detects potential adversary movements and vectors 
other scarce ISR or strike platforms directly to a potential target, 
increasing their effectiveness exponentially. The Air Force is 
currently pursuing a recapitalization of the JSTARS to replace the 
aging fleet. With the growing threats in your theater, and experience 
employing the JSTARS in another part of the world, would you please 
characterize the contribution the JSTARS would bring to your current 
warfighting mission? Realizing there is currently insufficient JSTARS 
capacity to meet combatant command requirements, are you concerned 
there may be an increased gap in capacity if we remove current 
capability from the force structure prior to transitioning to the 
recapitalized system?
    General Scaparrotti. As our strategy and military activities evolve 
from engagement and assurance to deterrence and defense, the 
surveillance capability provided by JSTARS and similar platforms become 
more important. This capability provides needed Indications and Warning 
of Russian troop movements along NATO's eastern border and is key to 
our readiness to counter Russia. As with all high demand, low density 
Airborne ISR capabilities, requirements far outstrip capacity, 
therefore any decreases in ISR assets would increase the delta between 
requirements and ability for those requirements to be satisfied.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MOULTON
    Mr. Moulton. European Reassurance Initiative (ERI) has been an 
important policy to provide support to our allies and counter Russia. 
However, I am concerned that deployments of ground troops, aircraft 
squadrons--while critically necessary--are not sufficient in themselves 
to counter Russia's insidious hybrid warfare. How can we better tailor 
ERI to address this? Particularly, covert influence and information 
warfare--how can we provide additional or new legislative authority or 
budgetary resources to ensure these methods of Russian influence are 
countered?
    General Scaparrotti. The Information Operations program is one of 
the EUCOM commander's most powerful tools to challenge an adversaries 
disinformation and propaganda, expose the false narratives that 
accompany ``hybrid warfare,'' counter violent extremist messaging, and 
share the information environment prior to and during a crisis. We 
currently do not need any new legislative authorities and are working 
Information Operations requirement through our established ERI process 
to ensure we use these funds in the best areas to get the desired 
result. The best way to counter this type of warfare is thru a whole of 
government approach. We are actively participating in the interagency, 
State Department led, Russia Information Group (RIG) which is looking 
at new ways to counter Russia's massive hybrid warfare campaign. 
Outcomes from this interagency working group may result in the need for 
new authorities or budget resources.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. ABRAHAM
    Dr. Abraham. With last year's coup attempt in Turkey and the 
potential for political instability ahead of this year's April 
presidential referendum there, what are some of the challenges you have 
faced and expect to face with U.S. and coalition basing access to 
Incirlik Air Base? Have we faced similar access issues with other 
allies who experienced political instability in the past?
    General Scaparrotti. Last year's coup attempt in Turkey created 
several initial challenges for EUCOM. These included cutting power and 
fuel supplies to Incirlik AB that were all quickly resolved. Presently, 
we do not expect the Turkish political situation will play a persistent 
role with regards to Allied access at Incirlik AB. For the purposes of 
flexibility, we have assessed alternative basing options, not only for 
Incirlik AB but throughout the EUCOM AOR. While EUCOM is prepared to 
shift our assets from Incirlik if required, we are working closely with 
Turkish military and political leadership to ensure a long, continued 
basing and access relationship with our Turkish Ally. Access challenges 
are not limited to Turkey, and we have been required to work through 
freedom of movement and access issues with forward based troops in many 
of our Allies throughout the years.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
